                                                                              Attachment II


   NATIONAL RAILROAD
   PASSENGER CORPORATION




                                                                             June 28, 2013

The Honorable Darrell E. Issa
Chairman, Committee on Oversight
  and Government Reform
2157 Rayburn House Office Building
Washington, DC 20515-6143

The Honorable Elijah E. Cummings
Ranking Member, Committee on Oversight
  and Government Reform
2157 Rayburn House Office Building
Washington, DC 20515-6143

Dear Chairman Issa and Ranking Member Cummings:

This memorandum provides the information your office requested on June 17, 2013,
related to open and unimplemented recommendations made by my office. The
information we are providing in response to your four questions is summarized below.


   1. We have 165 open and unimplemented recommendations from 41 reports. Of
these recommendations, 53 recommendations are from 26 audit reports, and
112 recommendations are from 15 evaluation reports. (see attachment 1)

   2. The cost savings we identified for unimplemented and partially implemented
audit recommendations are about $25 million. For evaluation recommendations we
identified potential multi-year savings of $139 million and between $694 million and
$1.2 billion in potential equipment cost savings over the life of equipment identified in
Amtrak’s FY 2010 Fleet Strategy. (see attachment 2)
      3. We are providing a listing of our cost saving recommendations, the date they
were made and the estimated savings in an attachment. (see attachment 2)

      4. The open and unimplemented recommendations that we consider to be the most
important are addressed below. (see attachment 3 for the links to the reports)

            The collective recommendations from reports to recover $23.6 million in
             overpayments to freight railroads. Amtrak management has agreed with
             these recommendations and is actively negotiating the recoveries.
            We recommended that Amtrak develop and implement an Enterprise Risk
             Management process for the entire organization to include the Board of
             Directors. Amtrak’s Board Chairman and Chief Executive Officer agreed to
             consider the commitments needed to implement Enterprise Risk
             Management and the Corporation is developing an approach as part of its
             Strategic Management System. Implementing an effective risk management
             process across the enterprise has the potential for millions of dollars in
             savings over an extended period.
            By improving the efficiency of human resource processes and its training and
             employee development, Amtrak could save approximately $31 million per
             year. Amtrak is actively working to implement our recommendations and
             improve its human resource processes and training and development
             program.

If you have any questions, please contact me at 202-906-4499,
(Ted.Alves@amtrakoig.gov) or Tom Howard, Deputy Inspector General, at
202-906-4561, (Tom.Howard@amtrakoig.gov).

Sincerely,



Ted Alves
Inspector General

cc:      Committee on Oversight and Government Reform

Attachments (4)

                                                                                          2
                                                   Attachment 1


Summary of All Reports with Open Recommendations - Audits


                                                                                                           Number of Open
Report Number    Report Title                                                          Report Issue Date   Recommendations

OIG-A-2013-015   Real Property Management: Applying Best Practices Can Improve             6/12/2013               1
                 Real Property Inventory Management Information
OIG-A-2013-011   Amtrak Invoice Review: Internal Control Weaknesses Lead to                3/28/2013               1
                 Overpayments (Union Pacific)
OIG-A-2013-010   Amtrak Invoice Review: Internal Control Weaknesses Lead to                3/27/2013               1
                 Overpayments (Metro North)
OIG-A-2013-012   Audit of Grant Agreement: Next Generation Equipment Committee             3/27/2013               4
                 Materially Complied with Terms of the Grant Agreement
OIG-A-2013-008   Amtrak Invoice Review: Internal Control Weaknesses Lead to                3/26/2013               2
                 Overpayments (BNSF)
OIG-A-2013-009   Management of Overtime: Best Practice Controls Can Help in                3/26/2013               3
                 Developing Needed Policies and Procedures
OIG-A-2013-007   AMTRAK INVOICE REVIEW: Internal Control Weaknesses Lead to                3/13/2013               1
                 Overpayments (Southern Pacific)
OIG-A-2013-006   Amtrak Invoice Review: Undetected Inaccuracies Resulted in                2/15/2013               1
                 Overpayments
OIG-A-2012-017   Annual Financial Statement Audits: Observations for Improving             9/27/2012               1
                 Oversight of the Independent Public Accountant
OIG-A-2012-021   American Recovery and Reinvestment Act: Some Questioned Invoice           9/21/2012               2
                 Charges and Minimal Benefit from Duplicative Invoice-Review Process
OIG-A-2012-020   Food and Beverage Service: Initiatives to Help Reduce Direct              9/7/2012                1
                 Operating Losses Can Be Enhanced by Overall Plan
OIG-A-2012-019   Amtrak Invoice Review: Undetected Errors Resulted in Overpayments         9/5/2012                1
OIG-A-2012-016   Claims Program: Use of Best Practices Would Strengthen                    8/14/2012               8
                 Management Controls


                                                                                                           Page 1 of 3
                                                           Attachment 1



                                                                                                                Number of Open
Report Number           Report Title                                                        Report Issue Date   Recommendations

OIG-A-2012-014          Human Capital Management: Weaknesses in Hiring Practices Result         7/19/2012               6
                        in Waste and Operational Risk
OIG-A-2012-013          On-Time-Performance Incentives: Inaccurate Invoices Were Paid           6/29/2012               1
OIG-A-2012-007          Amtrak Corporate Governance: Implementing a Risk Management             3/30/2012               2
                        Framework is Essential to Achieving Amtrak's Strategic Goals
OIG-A-2012-004          On-Time-Performance Incentives: Inaccurate Invoices Were Paid Due       2/15/2012               1
                        to Weaknesses in Amtrak's Invoice-Review Process
OIG-A-2012-003          Wireless Network Security: Internal Controls Can Be Improved            12/7/2011               3
109-2010                Americans with Disabilities Act: Leadership Needed to Help Ensure       9/29/2011               2
                        That Stations Served By Amtrak Are Compliant
403-2010                On-Time-Performance Incentives: Inaccurate Invoices Were Paid Due       4/21/2011               1
                        to Long-standing Weaknesses in Amtrak's Invoice-Review Process
105-2010                Strategic Asset Management Program Controls Design Is Generally         1/14/2011               5
                        Sound, But Improvements Can Be Made
401-2008                Host RRCA and Operations Management Controls                            8/21/2008               1
509-2001                Railroad Invoice Review: Southern Pacific Central States Line           9/21/2001               1
                        Railroad Report 4 of 4
508-2001                Railroad Invoice Review: Southern Pacific Central States Line           9/12/2001               1
                        Railroad Report 3 of 4
507-2001                Railroad Invoice Review: Southern Pacific Central States Line           8/31/2001               1
                        Railroad Report 2 of 4
506-2001                Railroad Invoice Review: Southern Pacific Central States Line           8/3/2001                1
                        Railroad Report 1 of 4

Total Number of Reports: 26                                                                                            53




                                                                                                                Page 2 of 3
                                                          Attachment 1

Summary of All Reports with Open Recommendations - Inspections and Evaluations
Summary of All Reports with Open Recommendations - Inspections and Evaluations
                                                                            Number of Open
Report Number           Report Title                                                         Report Issue Date   Recommendations

OIG-E-2013-014          Asset Management: Integrating Sound Business Practices into its          5/28/2013              3
                        Fleet Planning Process Could Save Amtrak Hundreds of Millions of
                        Dollars on Equipment Procurements
OIG-E-2013-003          Railroad Safety: Amtrak Has Made Progress in Implementing               12/20/2012              7
                        Positive Train Control, but Significant Challenges Remain
OIG-E-2012-023          Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug         9/27/2012              8
                        and Alcohol Use by Employees in Safety-Sensitive Positions
OIG-E-2012-012          Strategic Asset Management Program: Opportunities to Improve             5/31/2012              7
                        Implementation and Lessons Learned
OIG-E-2012-008          Mechanical Maintenance: Improved Practices Have Significantly            5/21/2012              7
                        Enhanced Acela Equipment Performance and Could Benefit
                        Performance of Equipment Company-Wide
OIG-E-2012-009          Human Capital Management: Controls Over the Use of Temporary             3/28/2012              3
                        Management Assignment Need Improvement
E-11-03                 Food and Beverage Service: Further Actions Needed to Address             6/23/2011              2
                        Revenue Losses Due to Control Weaknesses and Gaps
E-11-02                 Evaluation of Amtrak’s FY 2010 Fleet Strategy: A Commendable High-       3/31/2011              7
                        Level Plan That Needs Deeper Analysis and Planning Integration
E-11-01                 Operation RedBlock: Actions Needed to Improve Program                    3/15/2011              5
                        Effectiveness
E-09-06                 Training and Employee Development                                       10/26/2009             24
E-09-05                 Amtrak's Infrastructure Maintenance Program                              9/29/2009              8
E-09-03                 Human Capital Management                                                 5/15/2009             19
E-06-04                 Facility Maintenance Program                                             8/24/2006              4
E-06-02                 Amtrak Fleet Planning Process                                            4/6/2006               4
E-05-04                 Amtrak Mechanical Maintenance Operations                                 9/6/2005               4
Total Number of Reports: 15                                                                                            112


                                                                                                                 Page 3 of 3
                                                                   Attachment 2

Open Report Recommendations with Estimated Cost Savings - Audits

Recommendation from Report                                                                             Estimated Cost Savings


OIG-A-2013-011           Amtrak Invoice Review: Internal Control Weaknesses Lead to                                             3/28/2013
                         Overpayments (Union Pacific)
We recommend that Amtrak’s Acting Chief Financial Officer take action to recover the $2,338,860 that            $2,338,860.00
Amtrak overpaid Union Pacific for on-time-performance incentives and services.

OIG-A-2013-010           Amtrak Invoice Review: Internal Control Weaknesses Lead to                                             3/27/2013
                         Overpayments (Metro North)
We recommend that Amtrak’s Acting Chief Financial Officer act to recover the $1,223,028 that we                 $1,223,028.00
estimate Amtrak overpaid to Metro North.

OIG-A-2013-012           Audit of Grant Agreement: Next Generation Equipment Committee                                          3/27/2013
                         Materially Complied with Terms of the Grant Agreement
Seek reimbursement from AASHTO for the questioned costs and obtain documentation for the                           $11,345.00
unsupported costs.

OIG-A-2013-008           Amtrak Invoice Review: Internal Control Weaknesses Lead to                                             3/26/2013
                         Overpayments (BNSF)
Acting Chief Financial Officer take action to recover the approximately $1,437,311 in                           $1,437,311.00
overpayments made to BNSF.

OIG-A-2013-007           AMTRAK INVOICE REVIEW: Internal Control Weaknesses Lead to                                             3/13/2013
                         Overpayments (Southern Pacific)
We recommend that Amtrak’s Acting Chief Financial Officer take action to recover the $1,205,626 that            $1,205,626.00
Amtrak overpaid the host railroad for services.




                                                                                                                        Page 1 of 5
                                                                      Attachment 2


Recommendation from Report                                                                             Estimated Cost Savings


OIG-A-2013-006            Amtrak Invoice Review: Undetected Inaccuracies Resulted in                                            2/15/2013
                          Overpayments
We recommend that Amtrak's Acting Chief Financial Officer take action to recover the $2,115,440 that            $2,115,440.00
Amtrak overpaid BNSF for on-tim-performance incentives.

OIG-A-2012-021            American Recovery and Reinvestment Act: Some Questioned Invoice                                       9/21/2012
                          Charges and Minimal Benefit from Duplicative Invoice-Review Process
Recover over $1.2 million in questioned costs identified in this report.                                        $1,200,000.00


OIG-A-2012-019            Amtrak Invoice Review: Undetected Errors Resulted in Overpayments                                      9/5/2012
We recommend that Amtrak's Acting Chief Financial Officer take action to recover the $3,473,737 that            $3,473,737.00
Amtrak overpaid to Union Pacific.

OIG-A-2012-013            On-Time-Performance Incentives: Inaccurate Invoices Were Paid                                         6/29/2012
We recommend that Amtrak’s Chief Financial Officer take action to recover the $1,430,113 that                   $1,430,113.00
Amtrak overpaid to the host railroad for on-time-performance incentives.

OIG-A-2012-004            On-Time-Performance Incentives: Inaccurate Invoices Were Paid Due to                                  2/15/2012
                          Weaknesses in Amtrak's Invoice-Review Process
We recommend that Amtrak’s Chief Financial Officer take action to recover the $9,151,451 that                   $9,151,451.00
Amtrak overpaid BNSF Railway in on-time performance incentives.

403-2010                  On-Time-Performance Incentives: Inaccurate Invoices Were Paid Due to                                  4/21/2011
                          Long-standing Weaknesses in Amtrak's Invoice-Review Process
Recover the $519,932 Amtrak overpaid Metro-North in on-time performance incentives.                               $519,932.00




                                                                                                                        Page 2 of 5
                                                               Attachment 2


Recommendation from Report                                                                        Estimated Cost Savings


509-2001               Railroad Invoice Review: Southern Pacific Central States Line Railroad                              9/21/2001
                       Report 4 of 4
We recommend that management takes appropriate corrective action to collect $355,876 which                   $282,957.00
covers July 1999 through December 1999. (We revised this number to $282,957 in 2009 based on
information provided after report issuance).

508-2001               Railroad Invoice Review: Southern Pacific Central States Line Railroad                              9/12/2001
                       Report 3 of 4
We recommend that management takes appropriate corrective action to collect $153,880 which                   $140,377.00
covers January 1999 through June 1999. (We this number to $140,377 in 2009 based on information
provided after report issuance).

507-2001               Railroad Invoice Review: Southern Pacific Central States Line Railroad                              8/31/2001
                       Report 2 of 4
We recommend that management takes appropriate corrective action to collect $233,132 which                   $153,766.00
covers July 1998 to December 1998. (Werevised this number to $153,766 in 2009 based on
information provided after report issuance).

506-2001               Railroad Invoice Review: Southern Pacific Central States Line Railroad                               8/3/2001
                       Report 1 of 4
We recommend that management takes appropriate corrective action to collect $203,671 which                   $125,957.00
covers January 1998 to June 1998. (We revised this number to $125,957 in 2009 based on
information provided after report issuance).


                                                                                                         $24,809,900.00




                                                                                                                   Page 3 of 5
                                                                       Attachment 2

 Open Report Recommendations with Estimated Cost Savings - Inspections
 and Evaluations

Evaluation Summary or Recommendation from Report                                          Estimated Cost Savings


E-05-04         Amtrak Mechanical Maintenance Operations                                                                                       9/6/2005
By adopting a new mechanical maintenance philosphy and other efficiency                   Report originally estimated over $100 million per year in
improvement initiatives, Amtrak could potentially save over $100 million per year         savings. We estimate that actions accomplished through April
in mechanical maintenance costs.                                                          2010 have already saved aproximately $30 million per year.

E-06-02         Amtrak Fleet Planning Process                                                                                                  4/6/2006
By increasing the productivity and utilization of its rolling stock fleet, Amtrak could   Report originally estimated over $28 million per year in
improve its overall financial performance by over $28 million per year.                   savings. We estimate that actions accomplished through April
                                                                                          2010 have already saved approximately $4 million per year.

E-09-03         Human Capital Management                                                                                                      5/15/2009
By leveraging new technology and improving the efficiency of human resource               Over $23 million per year for all recommendations in report.
processes, Amtrak could save over $23 million per year.

E-09-05         Amtrak's Infrastructure Maintenance Program                                                                                   9/29/2009
By bringing Amtrak's infrastructure up to a "State of Good Repair" and adopting           Over $50 million per year for all recommendations in the report.
the best practices in infrastructure maintenance from European railroads, Amtrak
could save over $50 million per year.

E-09-06         Training and Employee Development                                                                                            10/26/2009
By improving the efficiency of its training, Amtrak could save approximately $8           Approximately $8 million per year for all report
million per year.                                                                         recommendations.




                                                                                                                                       Page 4 of 5
                                                                  Attachment 2


Evaluation Summary or Recommendation from Report                                    Estimated Cost Savings


E-11-02        Evaluation of Amtrak’s FY 2010 Fleet Strategy: A Commendable High-Level                                                    3/31/2011
               Plan That Needs Deeper Analysis and Planning Integration
We recommend that the President and CEO ensure that future strategy updates         Implementing this recommendation could allow Amtrak to
consider increasing the use of multi-level passenger coaches wherever practical     reduce its fleet requirements over the thirty year planning
and feasible.                                                                       period in Amtrak's Fleet Strategy. This could potentially result
                                                                                    in the reduction of between $174 million and $679 million
                                                                                    (depending on the amount of luggage space provided) in
                                                                                    procurement and overhaul costs over the lives of these
                                                                                    additional pieces of equipment.

We recommend that the President and CEO ensure that future strategy updates         Implementing this recommendation would allow Amtrak to
consider Amtrak’s planned equipment availability and reliability improvements and   reduce its fleet requirements by 53 cars and 25 locomotives
incorporate their impact into equipment estimates. He should also ensure that       over the thirty year planning period in Amtrak's Fleet Strategy.
future strategy updates incorporate the impact of any additional equipment          This would potentially result in the reduction of $520 million in
availability improvements.                                                          procurement and overhaul costs over the lives of these
                                                                                    additional pieces of equipment.




                                                                                                                                 Page 5 of 5
                                                                   Attachment 3

Amtrak OIG Most Important Open and Unimplemented Recommendations - Audits


Recommendation from Report                                                                                     Estimated Cost Savings

OIG-A-2013-011           Amtrak Invoice Review: Internal Control Weaknesses Lead to 3/28/2013
                         Overpayments (Union Pacific)
We recommend that Amtrak’s Acting Chief Financial Officer take action to recover the $2,338,860 that Amtrak             $2,338,860.00
overpaid Union Pacific for on-time-performance incentives and services.
http://www.amtrakoig.gov/sites/default/files/reports/oig-a-2013-011_redacted.pdf


OIG-A-2013-010           Amtrak Invoice Review: Internal Control Weaknesses Lead to 3/27/2013
                         Overpayments (Metro North)
We recommend that Amtrak’s Acting Chief Financial Officer act to recover the $1,223,028 that we estimate                $1,223,028.00
Amtrak overpaid to Metro North.
http://www.amtrakoig.gov/sites/default/files/reports/final_report_mn_otp_oig-a-2013-010_redaction_copy.pdf


OIG-A-2013-008           Amtrak Invoice Review: Internal Control Weaknesses Lead to 3/26/2013
                         Overpayments (BNSF)
Acting Chief Financial Officer take action to recover the approximately $1,437,311 in                                   $1,437,311.00
overpayments made to BNSF.
http://www.amtrakoig.gov/sites/default/files/reports/bnsf_final_report_oig-a-2013-008_-_03-26-2013_redacted_




                                                                                                                      Page 1 of 6
                                                                   Attachment 3



Recommendation from Report                                                                                            Estimated Cost Savings

OIG-A-2013-007           Amtrak Invoice Review: Internal Control Weaknesses Lead to                        3/13/2013
                         Overpayments (Southern Pacific)
We recommend that Amtrak’s Acting Chief Financial Officer take action to recover the $1,205,626 that Amtrak                    $1,205,626.00
overpaid the host railroad for services.
http://www.amtrakoig.gov/sites/default/files/reports/oig-a-2013-007_redacted_for_web.pdf


OIG-A-2013-006           Amtrak Invoice Review: Undetected Inaccuracies Resulted in                        2/15/2013
                         Overpayments
We recommend that Amtrak's Acting Chief Financial Officer take action to recover the $2,115,440 that Amtrak                    $2,115,440.00
overpaid BNSF for on-tim-performance incentives.
http://www.amtrakoig.gov/sites/default/files/reports/bnsf_final_report_oig-a-2013-006_-_02-15-2013_redacted_


OIG-A-2012-019           Amtrak Invoice Review: Undetected Errors Resulted in                              9/5/2012
                         Overpayments
We recommend that Amtrak's Acting Chief Financial Officer take action to recover the $3,473,737 that Amtrak                    $3,473,737.00
overpaid to Union Pacific.
http://www.amtrakoig.gov/sites/default/files/reports/union_pacific_invoice_review_report_final_-_redacted.pdf


OIG-A-2012-013           On-Time-Performance Incentives: Inaccurate Invoices Were                          6/29/2012
                         Paid
We recommend that Amtrak’s Chief Financial Officer take action to recover the $1,430,113 that Amtrak                           $1,430,113.00
overpaid to the host railroad for on-time-performance incentives.
http://www.amtrakoig.gov/sites/default/files/reports/final_report_sp_otp_june_29_2012_redactions.pdf




                                                                                                                             Page 2 of 6
                                                                   Attachment 3



Recommendation from Report                                                                                      Estimated Cost Savings

OIG-A-2012-007           Amtrak Corporate Governance: Implementing a Risk                               3/30/2012
                         Management Framework is Essential to Achieving Amtrak's
                         Strategic Goals
In the long term, develop and implement an Enterprise Risk Management process for the entire organization,
to include the Board of Directors, which is consistent with the Committee of Sponsoring Organizations
framework.
http://www.amtrakoig.gov/sites/default/files/reports/1final_report_033012.pdf


OIG-A-2012-004           On-Time-Performance Incentives: Inaccurate Invoices Were 2/15/2012
                         Paid Due to Weaknesses in Amtrak's Invoice-Review Process
We recommend that Amtrak’s Chief Financial Officer take action to recover the $9,151,451 that Amtrak                     $9,151,451.00
overpaid BNSF Railway in on-time performance incentives.
http://www.amtrakoig.gov/sites/default/files/reports/final_report_-_bnsf_otp_2012-004_redacted_as_of_02-16-


403-2010                 On-Time-Performance Incentives: Inaccurate Invoices Were                       4/21/2011
                         Paid Due to Long-standing Weaknesses in Amtrak's Invoice-
                         Review Process
Recover the $519,932 Amtrak overpaid Metro-North in on-time performance incentives.                                        $519,932.00

http://www.amtrakoig.gov/sites/default/files/reports/0426___mn_otp_final_redacted_4032010_04212011.pdf




                                                                                                                       Page 3 of 6
                                                               Attachment 3



Recommendation from Report                                                                                Estimated Cost Savings

509-2001                Railroad Invoice Review: Southern Pacific Central States Line 9/21/2001
                        Railroad Report 4 of 4
We recommend that management takes appropriate corrective action to collect $355,876 which covers July               $282,957.00
1999 through December 1999. (We revised this number to $282,957 in 2009 based on information provided
after report issuance).
Marked For Official Use Only. Copies available upon request.


508-2001                Railroad Invoice Review: Southern Pacific Central States Line 9/12/2001
                        Railroad Report 3 of 4
We recommend that management takes appropriate corrective action to collect $153,880 which covers                    $140,377.00
January 1999 through June 1999. (We this number to $140,377 in 2009 based on information provided after
report issuance).
Marked For Official Use Only. Copies available upon request.


507-2001                Railroad Invoice Review: Southern Pacific Central States Line 8/31/2001
                        Railroad Report 2 of 4
We recommend that management takes appropriate corrective action to collect $233,132 which covers July               $153,766.00
1998 to December 1998. (Werevised this number to $153,766 in 2009 based on information provided after
report issuance).
See Attachment 4, page 1




                                                                                                                 Page 4 of 6
                                                                Attachment 3



Recommendation from Report                                                                                   Estimated Cost Savings

506-2001                Railroad Invoice Review: Southern Pacific Central States Line 8/3/2001
                        Railroad Report 1 of 4
We recommend that management takes appropriate corrective action to collect $203,671 which covers                       $125,957.00
January 1998 to June 1998. (We revised this number to $125,957 in 2009 based on information provided after
report issuance).
See Attachment 4, page 11



                                                                                                                    $23,598,555.00




                                                                                                                    Page 5 of 6
                                                                    Attachment 3

Amtrak OIG Most Important Open and Unimplemented Recommendations -
Inspections and Evaluations

Recommendation from Report                                                                                         Estimated Cost Savings

E-09-03        Human Capital Management                                                      5/15/2009
By leveraging new technology and improving the efficiency of human resource processes, Amtrak could save    Over $23 million per year for all
over $23 million per year.                                                                                     recommendations in report.

http://www.amtrakoig.gov/sites/default/files/reports/OIG%20HCM%20FINAL%20EVALUATION%20REPORT%20May%2015%202009.pdf


E-09-06        Training and Employee Development                                             10/26/2009
By improving the efficiency of its training, Amtrak could save approximately $8 million per year.          Approximately $8 million per year
                                                                                                             for all report recommendations.

http://www.amtrakoig.gov/sites/default/files/reports/Training%20Eval%20Report%20Final.pdf




                                                                                                                     Page 6 of 6
Attachment 4




               Page 1 of 19
Attachment 4




               Page 2 of 19
Attachment 4




               Page 3 of 19
Attachment 4




               Page 4 of 19
Attachment 4




               Page 5 of 19
Attachment 4




               Page 6 of 19
Attachment 4




               Page 7 of 19
Attachment 4




               Page 8 of 19
Attachment 4




               Page 9 of 19
Attachment 4




               Page 10 of 19
Attachment 4




               Page 11 of 19
Attachment 4




               Page 12 of 19
Attachment 4




               Page 13 of 19
Attachment 4




               Page 14 of 19
Attachment 4




               Page 15 of 19
Attachment 4




               Page 16 of 19
Attachment 4




               Page 17 of 19
Attachment 4




               Page 18 of 19
Attachment 4




               Page 19 of 19
